         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Evaluation Report




       Superfund’s Board of Directors
       Needs to Evaluate Actions to
       Improve the Superfund Program
       Report No. 2007-P-00029

       August 1, 2007
Report Contributors:	            Carolyn Copper
                                 Tina Lovingood
                                 Chad Kincheloe
                                 Steve Hanna
                                 Anne Emory
                                 Jayne Lilienfeld-Jones
                                 Mike Wagg




Abbreviations

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
NPL          National Priorities List
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
OSWER        Office of Solid Waste and Emergency Response
RCRA         Resource Conservation and Recovery Act
TSD          Treatment Storage and Disposal Facility
                         U.S. Environmental Protection Agency 	                                        2007-P-00029
                                                                                                      August 1, 2007
                         Office of Inspector General


                         At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review                 Superfund’s Board of Directors Needs to Evaluate
We evaluated the U.S.                  Actions to Improve the Superfund Program
Environmental Protection
Agency’s (EPA’s) progress in
responding to three                     What We Found
recommendations from its 2004
study of the Superfund program         We found that EPA completed its work to determine the financial impact of
(see below). The study                 RCRA-regulated facilities on the Superfund program. The Agency is still
recommended that EPA determine         assessing the financial impacts of non-RCRA facilities on the Superfund
if Resource Conservation and           program. EPA also responded to Office of Inspector General recommendations
Recovery Act (RCRA) facilities         on RCRA financial assurance. However, we found that some of EPA’s planned
were causing a burden on the
                                       actions to address its Study recommendations were different than the actions
Superfund program. We also
evaluated EPA’s progress in            recommended.
responding to an Office of
Inspector General                       What We Recommend
recommendation on RCRA
financial assurance.
                                       We recommend that the Board review a sample of the implemented Study
                                       recommendations to confirm that the actions taken were complete and
Background
                                       responsive to the original Study recommendation(s).
In April 2004, EPA released a
study entitled Superfund: Building
on the Past, Looking to the Future
(the Study). It was requested by
then Acting Deputy EPA
Administrator Stephen Johnson.
The final report made 102
recommendations for improving
the Superfund program. In
response, the Acting Deputy EPA
Administrator created a Superfund
Board of Directors (the Board).
Its role was to prepare, coordinate,
and execute action plans to
address the report’s
recommendations.

For further information, contact
our Office of Congressional and
Public Liaison at (202) 566-2391.

To view the full report, click on
the following link:
www.epa.gov/oig/reports/2007/
20070801-2007-P-00029.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          August 1, 2007


MEMORANDUM

SUBJECT:               Superfund’s Board of Directors Needs to Evaluate Actions to Improve
                       the Superfund Program
                       Report No. 2007-P-00029


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Susan Parker Bodine
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response

                       Granta Nakayama
                       Assistant Administrator
                       Office of Enforcement and Compliance Assurance


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The OIG
responded to the Agency’s draft report comments by making changes to the report and providing
responses to EPA, as appropriate. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $246,015.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. The Office of Solid Waste and Emergency Response should
coordinate EPA comments on this report and provide a consolidated response. Your response
should include a corrective action plan including milestone dates. Please email an electronic
version of your response that complies with Section 508 of the Rehabilitation Act to Tina
Lovingood at lovingood.tina@epa.gov. We have no objections to the further release of this
report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at 202-566-0829 or
copper.carolyn@epa.gov; or Tina Lovingood, Project Manager, at 202-566-2906 or
lovingood.tina@epa.gov.
Purpose
The purpose of this evaluation was to follow up on the U.S. Environmental Protection Agency’s
(EPA’s) progress in responding to recommendations in its April 2004 report on the Superfund
program, Superfund: Building on the Past, Looking to the Future, known generally as the 120­
Day Study. Our evaluation followed up on three of the report’s recommendations:

    �	 Recommendation 10: “OSWER [Office of Solid Waste and Emergency Response]
       should evaluate the history of NPL [National Priorities List] listings and removal actions
       to determine what percent[age] were RCRA [Resource Conservation and Recovery Act]
       treatment, storage, and disposal facilities [TSDs] or hazardous waste generators and to
       what extent these facilities present a continuing burden to the Superfund program.”
    �	 Recommendation 11: “If the evaluation confirms a high correlation with RCRA-
       regulated facilities, OSWER and OECA [Office of Enforcement and Compliance
       Assurance] should examine different approaches to financial assurance under the RCRA
       program to reduce the likelihood of RCRA-regulated facilities becoming part of the
       future Superfund universe.”
    �	 Recommendation 12: “For facilities not covered under RCRA, OSWER should study
       whether promulgating new regulations under CERCLA’s [Comprehensive Environmental
       Response, Compensation, and Liability Act’s] broad financial assurance authorities could
       reduce the future needs of the Superfund program.”

We also followed up on Agency progress in responding to OIG Recommendation 4.1 from our
September 2005 report on RCRA financial assurance.1 The recommendation is closely related to
Recommendation 11 in the 120-Day Study. We recommended that OSWER develop and
communicate the EPA plan to address concerns with RCRA financial assurance regulations.

Background

The 120-Day Study (the Study) was an EPA-conducted review of the Superfund program. The
overall objective of the Study was to identify ways to make the Superfund program more
efficient so that the Agency could fund more cleanups with current resources. The Study was
requested by then Acting Deputy EPA Administrator Stephen Johnson. The final report made
102 recommendations for improving the Superfund program. In response to the Study, the
Acting Deputy EPA Administrator created the Superfund Board of Directors (the Board). The
Board’s role is to prepare, coordinate, and execute action plans to address the report’s
recommendations. The Assistant Administrators for OSWER and OECA co-chair the Board.

Scope and Methodology
We addressed the following questions. The questions address work that the Agency was to
complete in responding to Study Recommendations 10, 11, and 12.


1
 Continued EPA Leadership Will Support State Needs for Information and Guidance on RCRA Financial
Assurance, Report Number 2005-P-00026, September 26, 2005.


                                                    1

    1.	 What progress and findings has the Agency made in compiling and analyzing information
        on RCRA referrals to the Superfund program, to include those that have become NPL
        sites? (Recommendation 10)

    2.	 Where it has occurred, what are the causes for RCRA referrals to the Superfund
        program? Do causes include inadequacies in RCRA financial assurance regulations, and
        what is the status of EPA actions to correct these inadequacies? (Recommendation 11
        from the Study and Recommendation 4.1 from the September 2005 OIG RCRA financial
        assurance report)

    3.	 What is the origin (e.g., non-RCRA Brownfield sites, previously unregulated private
        party abandoned sites) of the sites on the NPL and what proportion is represented by
        RCRA referrals? (Recommendation 12)

We performed preliminary research from June 2006 to November 2006. We applied
Government Auditing Standards, issued by the Comptroller General of the United States, to areas
within the scope of this review. We evaluated EPA’s management controls over completing
recommendations 10, 11, and 12. We also evaluated EPA’s reporting of selected other
recommendations. To address our objectives, we reviewed and analyzed financial assurance
regulations, documents, reports, and data. We conducted our work at EPA Headquarters.

Prior Evaluation Coverage

The OIG issued a report entitled Continued EPA Leadership Will Support State Needs for
Information and Guidance on RCRA Financial Assurance, Report Number 2005-P-00026, on
September 26, 2005. This report stated that:

�	 EPA does not have adequate data on financial assurance at hazardous waste TSDs regulated
   under RCRA.
�	 State and EPA financial assurance officials need to improve communication mechanisms to
   share financial assurance information.
�	 EPA needs to update guidance and needs to uniformly oversee State programs.
�	 States and EPA staff expressed concerns with aspects of the financial test and other financial
   assurance mechanisms.

The OIG recommended (among other actions) that OSWER develop and communicate EPA’s
plan for addressing concerns with financial assurance. EPA generally agreed with the OIG
recommendations. In October 2006, EPA provided us its plan.

Noteworthy Achievements

EPA has begun implementing its financial assurance plan. And, according to EPA, it has
accomplished 89 percent of the Study recommendations.2

2
  According to the Agency it has completed 89 percent of 108 Study recommendations as of 1/31/07. Its action plan
contains 102 recommendations from the Study, including the 102 recommendations, and 6 additional “optional”
recommendations.


                                                       2

Agency Progress in Addressing Recommendation 10
The Agency has completed its work on Recommendation 10. EPA evaluated the history of NPL
listings and removal actions to identify RCRA facilities and the extent to which these facilities
pose a continuing burden to the Superfund program. To determine this burden, OSWER staff
analyzed Superfund expenditure data from Fiscal Year (FY) 1981 through FY 2005.

The staff estimated that RCRA facilities account for 27 percent, or about $2.8 billion, of the NPL
site cleanup costs between FY 1981 and FY 2005. OSWER staff stated that these expenditures
are “not insignificant.” The staff also studied the history of 40 TSDs proposed for listing to the
NPL after 1990.3 The staff wanted to determine the reasons for proposal and whether similar
types of facilities would be proposed to the NPL in the future. The staff concluded that the
environmental damage at most of these sites generally occurred before EPA began to regulate
TSDs. The sites’ proposed listing to the NPL was not due to the failure of the RCRA regulatory
program. Rather, the proposed sites were marginal RCRA TSD facilities that were forced to
cease operations due to their inability to comply with RCRA requirements.

During fieldwork, we found that EPA had not completed the portion of Recommendation 10 that
directed EPA to analyze the history of Superfund removal actions to determine what percentage
were RCRA TSDs and to what extent these sites present a continuing burden to the Superfund
program. That EPA had not performed this analysis may have been due in part to the fact that
the last three action plans submitted by the Board (March and June 2006, and January 2007) did
not contain the actual language from Recommendation 10 to conduct this work. Subsequent to
issuing our draft report, the Agency provided documentation showing it had modified
Recommendation 10 in its tracking system to contain the language. The Agency also told us that
it did not interpret Recommendation 10 to require a separate analysis of removal action costs.
Despite that, and in response to OIG requests, EPA provided documentation to show that it had
conducted analysis of the potential costs of Superfund removal actions at TSDs. The Agency
concluded that removal action costs were small in comparison to NPL costs, and that its work
was complete on Recommendation 10.

Agency Progress in Addressing Recommendation 11
EPA’s work on Recommendation 11 is complete. Recommendation 11 stated that if EPA found
a high correlation with RCRA-regulated facilities, EPA should examine approaches to RCRA
financial assurance to reduce the likelihood of the facilities becoming future Superfund sites. To
satisfy Recommendation 11, and OIG recommendation 4.1 in the 2005 OIG report on RCRA
financial assurance, OSWER provided the OIG with a detailed financial assurance action plan.
OSWER’s plan comprehensively addresses the OIG recommendation and will be used by EPA
to perform followup activities to address RCRA financial assurance for Recommendation 11.



3
  EPA selected the 40 sites because it believed these facilities would be good predictors of the types of RCRA
facilities that could be listed on the NPL in the future. By 1990, most of the significant 1984 Hazardous and Solid
Waste Amendments regulations were in place. The Superfund deferrals policy, which governs the types of RCRA
facilities proposed for the NPL, has not changed significantly since 1990.


                                                         3

Agency Progress in Addressing Recommendation 12
The Agency is working to complete Recommendation 12. This recommendation stated that, for
non-RCRA facilities, EPA should study whether new regulations under CERCLA’s financial
assurance authorities could reduce future Superfund resource needs. OSWER staff concluded
that obtaining accurate information for NPL sites would be resource-intensive. OSWER’s
estimate to complete this recommendation is December 2007.

A necessary first step to address this recommendation would be to examine the origin and history
of Superfund sites. We attempted to do so by reviewing internal databases. However, without
further review of EPA files, the search failed to provide the information needed to answer our
objective. Therefore, we were unable to independently determine site origins.

Superfund Board of Directors Oversight of Action on 120-Day Study
Recommendations
We found that the Superfund Board of Directors had management controls to implement and
complete most Study recommendations. Some of the controls include a system that tracks the
progress on the recommendations and weekly management review of the progress. The Office
of Site Remediation and Technology Innovation (OSRTI) and OECA also include Study projects
and the completion milestones in performance standards for senior managers, where appropriate.

However, during fieldwork, we found that the Board lacked management controls4 to ensure
implementing and completing the Study recommendations. Management controls will ensure
that milestones are met or updated on a regular basis and completed work addresses the
recommendations.

The Board issued action plans for responding to the Study recommendations in September 2005,
and March and June 2006. The plans included completion dates, lead offices, and status of
actions for each recommendation. During our fieldwork, the completion dates for
Recommendations 11 and 12 in the June 2006 action plan had passed. We brought this point to
the attention of a Board representative and asked how the Board monitors planned completion
dates, follows up on missed completion dates, and when the action plan would be updated next.
We also asked for updated completion dates for Recommendations 11 and 12. The response
stated that the Board uses action plan updates to track the progress in completing the
recommendations and that, at that time, 82 percent of the recommendations had been completed.
We were told that changes in planned completion dates should be expected over time. We were
also told that the next update of the action plan would coincide with the next Board meeting.
The Board believed Recommendation 11 was complete and that Recommendation 12 would not
be completed until March 2007 (and as of this report date, December 2007). OSWER and


4
  Examples of management controls include actions such as (1) verifying that the action plans correctly state the
Study recommendations, (2) regular progress updates on completing the action plans, (3) updating action plan
milestones when needed, (4) briefings to the Board on the specific actions or analysis taken to complete the
recommendations, and (5) confirmation of the completeness and responsiveness of the actions to the original Study
recommendation(s).


                                                        4

OECA also told us EPA would update the action plan to correctly state Recommendation 10. In
January 2007, OSWER staff provided us an updated action plan. However, the recommendation
language had not been corrected.

After we issued our draft report, the Agency provided documentation showing it had modified
Recommendation 10 language in its tracking system. It also provided details on its “internal
checks and balances”, or controls for completing Study recommendations.

Some Inconsistencies Between Agency Action Plans and Study
Recommendations

Because we initially found a difference between the way the Agency characterized
Recommendation 10 in its action plans, and the way it appeared in the Study, we compared how
the Agency characterized other Study recommendations. We found several instances in the
Agency’s action plans where the recommendations were rephrased and key actions the Agency
was supposed to take were omitted. Examples include recommendations 35, 48, 51, 52, 92, and
93. Rephrasing the Study recommendations can modify the intent of the recommendation, the
Agency’s action, and the results obtained.

Recommendations

We recommend the Superfund Board of Directors:

   1.	 In coordination with appropriate lead offices, modify the Study Action Plan to correctly
       state Recommendation 10 as it appears in the final Study.

   2.	 In fiscal year 2008, review a sample of completed actions on the Study recommendations
       to confirm that actions are complete and responsive to the original Study
       recommendation(s). The sample should include recommendations 35, 48, 51, 52, 92,
       and 93.

Agency Comments and OIG Evaluation
The OIG made changes to the report based on the Agency’s comments where appropriate.
Appendix A provides the full text of the Agency comments and OIG response.

The agency agreed with recommendation 1 and completed corrective action. We consider
recommendation 1 closed in the Inspector General Operations and Reporting System. The
agency provided comments to recommendation 2 but did not agree or disagree. We revised
recommendation 2 to reflect the agency comments. In response to our final report, the Agency
will need to comment on the revised recommendation 2. We consider recommendation 2 open
and unresolved.




                                               5

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1     Action Official        Date      Amount      Amount

     1        5     In coordination with appropriate lead offices, modify     C        Superfund Board of   07/09/07
                    the Study Action Plan to correctly state                               Directors
                    Recommendation 10 as it appears in the final
                    Study.

     2        5     In fiscal year 2008, review a sample of completed         O        Superfund Board of
                    actions on the Study recommendations to confirm                        Directors
                    that the actions are complete and responsive to the
                    original Study recommendation(s). The sample
                    should include recommendations 35, 48, 51, 52,
                    92, and 93.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  6

                                                                                  Appendix A


                 Agency Comments on Draft Report
                       and OIG Evaluation


May 21, 2006

MEMORANDUM


SUBJECT:       Response to OIG Evaluation Report “Superfund’s Board of Directors Needs to
               Better Oversee Completing Superfund Improvements” (April 20, 2007)
               Assignment Number 2006-1413

FROM:          Susan Parker Bodine/s/
               Assistant Administrator
               Office of Solid Waste and Emergency Response

               Granta Nakayama/s/        

               Assistant Administrator     

               Office of Enforcement and Compliance Assurance 


TO:            Bill Roderick
               Acting Assistant Inspector General
               Office of the Inspector General

       We appreciate the opportunity to respond to recommendations on your draft report
“Superfund’s Board of Directors Needs to Better Oversee Completing Superfund
Improvements.” This draft report was submitted to us on April 20, 2007. Comments were
provided on an earlier draft of that report on January 19, 2007.

        Several areas of concern with the report’s results and recommendations remain. First, we
have concluded that the analyses called for in the 120-Day Study Recommendations 10 and 11
are complete. We have included removal actions in our evaluation; however, we believe that
there is nothing to be gained from separating out costs associated with removal actions from
other activities. In addition, the Superfund Board of Directors has been overseeing the
completion of Superfund improvements. Specifically, the Board has been given progress
updates on the 120-Day Study in briefings and board members use their existing management
systems to oversee progress on implementing the 120 Day Study recommendations. Our specific
responses to the OIG recommendations are included in the attachment.

Attachment



                                               7

         Response to OIG Evaluation Report “Superfund’s Board of Directors Needs to Better 

                   Oversee Completing Superfund Improvements” (April 20, 2007) 

                             (Inserted into the table below by the OIG) 


            Table 1: EPA comments on OIG recommendations and OIG response
OIG Recommendation                 OSRE or OSRTI Response                  OIG Evaluation of Agency
                                        and/or Alternative                         Comments
The Superfund Board of       The 120 Day Study, SUPERFUND:           EPA agreed and completed this
Directors in coordination    Building on the Past, Looking to the    action. We are closing this
with appropriate lead        Future (April 2004) and the OSWER       recommendation upon final report
offices:                     120-Day Study Action Plan               issuance in the Inspector General
1. Modify the Study          (February 2005) have the same           Operations and Reporting System.
     Action Plan to          language regarding
     correctly state         Recommendation 10. However,
     Recommendation 10       OSWER’s periodic 120-Day Study
     as it appears in the    Action Plan Status Reports do not.
     final Study.            We are planning to develop another
                             status report for a Superfund Board
                             of Director’s meeting in June and we
                             will ensure the language in the next
                             120 Day Study status report contains
                             the same language that was used in
                             the original 120 Day Study
                             regarding Recommendation 10.
The Superfund Board of       The analysis conducted in response to  The Agency disagreed with our
Directors in coordination    Recommendations 10 and 11 of the       recommendation. It had interpreted
with appropriate lead        120-Day Study is complete. Therefore,  the Study differently than the OIG.
offices:                     we see no reason to update the         The Agency could have verified the
2. Develop new               analysis, schedules, or milestones.    intent of the Study recommendation
     milestones to                                                  with the Study leader. However, to
     complete work on        Specifically, Recommendation 10 of     address our concerns, the Agency
     Recommendation 10       the 120-Day Study asked OSWER to       provided some documentation to
     and 11; specifically,   “evaluate the history of National      show that it had conducted an
     the Board should        Priorities List (NPL) listings and     analysis of removal action
     complete the            removal actions to determine what      obligations, as expenditure data were
     evaluation of the       percent were RCRA treatment, storage, not available. Although the
     history of Superfund    and disposal facilities (TSDs) or      obligations data has limited
     removal actions that    hazardous waste generators and to what applicability, the Agency said it is
     have occurred at        extent these facilities present a      the best data they could provide.
     RCRA facilities.        continuing burden to the Superfund     We are withdrawing this
                             program.” OSWER evaluated sites in     recommendation from the final
                             two categories: Non-NPL and NPL.       report.
                             The historical record of Superfund
                             removal actions have been assessed as
                             part of both of these categories.
                             OSWER concluded that 2.3% of the


                                                      8

        Table 1: EPA comments on OIG recommendations and OIG response
OIG Recommendation         OSRE or OSRTI Response                OIG Evaluation of Agency
                                and/or Alternative                     Comments
                     total universe of Non-NPL sites (which
                     includes non-NPL removal sites) were
                     potential TSDs. The costs associated
                     with these potential TSDs were $111
                     million, or 5.6% of the total Superfund
                     site-specific expenditures at Non-NPL
                     sites. In addition, EPA found that
                     5.1% of Non-NPL sites were identified
                     as hazardous waste generators; these
                     generators represent 9.5% of the total
                     Superfund site-specific expenditures at
                     Non-NPL sites. We note that dollar
                     figures in the Non-NPL category
                     include all site-specific expenditures at
                     all Non-NPL sites where removal
                     actions have occurred. Furthermore, as
                     noted below, removal costs at sites
                     proposed to, listed on, or deleted from
                     the NPL were included as part of the
                     analysis of the NPL category. Thus,
                     OSWER has fully captured site
                     information and all site-specific costs
                     associated with Superfund sites where
                     removal actions took place.

                     The analysis of site-specific
                     expenditures for NPL sites also
                     included both remedial and removal
                     actions. Specifically, our analysis
                     determined that 143 potential TSDs
                     were NPL sites, or 9% of the universe
                     of 1,562 final and deleted NPL sites.
                     Superfund site-specific expenditures at
                     these sites totaled $1.03 billion, or
                     9.8% of the $10.6 billion spent on NPL
                     sites (FY05 expenditure figures). The
                     analysis did not break out removal
                     actions/costs within the NPL site
                     summaries. This was not an omission.
                     Our reading of Recommendation 10
                     was to identify the number of sites and
                     costs associated with site-specific
                     Superfund work. Site work is often


                                                9

        Table 1: EPA comments on OIG recommendations and OIG response
OIG Recommendation         OSRE or OSRTI Response                OIG Evaluation of Agency
                                and/or Alternative                     Comments
                     conducted using a combination of both
                     remedial and removal actions. Because
                     remedial and removal actions are both
                     used to support actions at NPL sites,
                     distinguishing between them for NPL
                     sites neither inform decisions on nor
                     change conclusions drawn on the need
                     for financial assurance. Moreover,
                     combining remedial and removal
                     actions for NPL sites provides for a
                     more straightforward presentation of
                     results.

                     EPA did conduct a more detailed
                     analysis of 40 RCRA TSDs that were
                     listed or proposed for the NPL, but it
                     did not conduct a comparable analysis
                     of TSDs subject to removal actions
                     (except where those facilities were
                     within the NPL category). This more
                     detailed analysis did not address non-
                     NPL TSDs or hazardous waste
                     generators that underwent Removal
                     Actions, or hazardous waste generators
                     proposed to, listed on, or deleted from
                     the NPL. We noted this order of
                     magnitude difference in expenditures:

                        �   The Superfund site-specific
                            expenditures associated with
                            potential RCRA TSDs and
                            hazardous waste generators that
                            became Non-NPL sites totaled
                            $298 million (combined);
                        �   The Superfund expenditures
                            associated with potential former
                            TSDs and hazardous waste
                            generators that were proposed
                            to, listed on, or deleted from the
                            NPL totaled $2.84 billion
                            (combined).

                     Given the much larger amount spent at


                                               10

           Table 1: EPA comments on OIG recommendations and OIG response
OIG Recommendation                  OSRE or OSRTI Response                   OIG Evaluation of Agency
                                          and/or Alternative                       Comments
                             NPL sites, we chose to focus on those
                             sites in order to evaluate the most
                             contaminated, costly group of TSD
                             sites (i.e., the NPL TSD sites). We do
                             not believe that analyzing an additional
                             set of lower cost facilities would
                             change our conclusion that the majority
                             of these Superfund expenditures were
                             used to address contamination that was
                             historical (pre-RCRA) in nature.

                             We believe that it makes more sense at
                             this time to put our resources into
                             implementing our financial assurance
                             plan. For example, on March 30, 2007,
                             the Office of Solid Waste and
                             Emergency Response (OSWER)
                             decided to initiate the Agency’s Action
                             Development Process (ADP) to
                             determine whether regulatory changes
                             need to be made to the current RCRA
                             Subtitle C financial test regulations.
                             By starting this process, we will be
                             closely evaluating the current financial
                             test. During the initial exploratory
                             phase, we will develop and analyze a
                             full range of options, including
                             addressing the concerns that have been
                             raised through implementation
                             assistance.

The Superfund Board of        As stated in previous correspondence,     EPA disagrees with this
Directors in coordination    OSWER and the Office of                    recommendation, because the Agency
with appropriate lead        Enforcement and Compliance                 believes it has internal checks and
offices:                     Assurance (OECA), the Co-Chairs of         balances to assure accountability for
 3. Develop and              the Superfund Board of Directors,          Study recommendations. At the exit
     implement               disagree with the OIG’s statement that     conference to discuss the draft report,
     management controls     the “Superfund Board of Directors          the Director for the Assessment and
     such as: a quarterly    lacks management controls to ensure        Remediation Division, OSRTI, and the
     schedule to receive     implementation and completion of the       Deputy Director for the Office of Site
     progress updates on     120-Day Study recommendations.”            Remediation and Enforcement and
     the completion of the   Implementation of the 120-Day Study        their staffs provided details on the
     Study Action Plan,      recommendations is built upon the          “Internal checks and balances”. Some


                                                      11

           Table 1: EPA comments on OIG recommendations and OIG response
OIG Recommendation                 OSRE or OSRTI Response                    OIG Evaluation of Agency
                                        and/or Alternative                            Comments
    and requirements to      Agency’s performance management           of the controls include a system that
    update action plan       and accountability systems.               tracks the progress on the
    milestones when          Responsibility for each                   recommendations and weekly
    needed. Progress         recommendation rests with one or more     management review of the progress.
    updates should           Agency office with a single office        OSRTI and OECA also include Study
    include briefings to     designated as the lead. The Board and     projects and the completion milestones
    the Board on the         its Working Group (consisting of          in performance standards, where
    specific actions or      senior managers of the organizations      appropriate. Staff briefs management
    analysis taken to        represented by Board members)             on progress so management can give
    complete the             comprise the major Superfund resource     appropriate direction. We are
    recommendations as       stakeholders across the Agency.           withdrawing this recommendation from
    stated in the Study.     Internal checks and balances to assure    the final report.
                             accountability for Study
                             recommendations are provided through
                             the respective management chains of
                             the Working Group and Board of
                             Directors. The Board meets
                             periodically and is briefed on progress
                             against planned completion dates. As
                             you have stated in the draft report, 82
                             percent of the 102 recommendations
                             were completed by June 2006. A
                             January 2007 Update (attached), that
                             was reviewed by the Superfund Board
                             of Directors during a briefing on 5
                             February, indicates that 89 percent of
                             the recommendations were complete.
The Superfund Board of       We will present this recommendation       The Agency did not agree or disagree
Directors in coordination    to the Superfund Board of Directors at    with the recommendation, but indicated
with appropriate lead        their next meeting in June 2007 and       that it will present the recommendation
offices:                     discuss how the Agency should             to the Superfund Board of Directors
4. Select a sample of        approach this recommendation.             and discuss how the Agency should
     completed actions on                                              approach this recommendation. In our
     the Study                                                         exit conference with the Agency, the
     recommendations to                                                Deputy Assistant Administrator for
     confirm that the                                                  OECA told us that the Board had
     actions are complete                                              decided not to act on the OIG’s
     and responsive to the                                             recommendation, due to resource
     original Study                                                    issues, until all the recommendations
     recommendation(s).                                                from the Study are completed. The
     The sample should                                                 Agency’s January 31, 2007 action plan
     include the examples                                              indicates that all but one
     cited in the report.                                              recommendation will be completed at


                                                      12

        Table 1: EPA comments on OIG recommendations and OIG response
OIG Recommendation     OSRE or OSRTI Response          OIG Evaluation of Agency
                          and/or Alternative                   Comments
                                                 the end of 2007. Therefore, we have
                                                 modified the recommendation to
                                                 address the Agency’s resource concern.
                                                 In the Agency response to the final
                                                 report, the Agency will need to
                                                 consider the revised recommendation,
                                                 and develop an action plan, with
                                                 completion milestones, for this
                                                 recommendation.




                                      13

                                                                               Appendix B


                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Enforcement and Compliance Assurance
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Agency Followup Official (the CFO)
Agency Followup Coordinator
Director, Office of Site Remediation Enforcement, Office of Enforcement and
      Compliance Assurance
Deputy Director, Office of Site Remediation Enforcement, Office of Enforcement and
      Compliance Assurance
Deputy Assistant Administrator, Office of Air and Radiation
Director, Office of Site Remediation and Technology Innovation, Office of Solid Waste
      and Emergency Response
Director, Office of Solid Waste, Office of Solid Waste and Emergency Response
Director, Assessment and Remediation Division, Office of Site Remediation and
      Technology Innovation, Office of Solid Waste and Emergency Response
Director, Regional Support Division, Office of Enforcement and Compliance Assurance
Deputy Division Director, Regional Support Division, Office of Enforcement and
      Compliance Assurance
Assistant Branch Chief, State and Tribal Site Identification Branch, Office of Solid Waste
      and Emergency Response
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
Acting Inspector General




                                             14

